V
supreme Court, U S"
FILED

i

OCT 2 2 2020

* •;

No.

ao - TM

OFFICE OF THE Cl PRKf

IN THE

Supreme Court of the United States
IBEABUCHI, IKEMEFULA CHARLES
(Last, First, Middle)

Petitioner

v.
National Records Center, Missouri
U.S. Dep't of Homeland Security
U.S. Dep't of State

Respondents

On Petition For writ Of Certiorari To The United States Court Of Appeals For The
Ninth Circuit.

PETITION FOR WRIT OF CERTIORARI

.*■

IBEABUCHI, IKEMEFULA CHARLES
USCIS#: 070675261; A#: 54108362
Booking No. 6779239
CoreCivic
1705 E. Hanna Road
Eloy, AZ 85131

Pro Se

Telephone: N/A

v

Cover-Page.

RIGINAL

• *•. k

Questions Presented For Review.

1. Whether or not, the Ninth Circuit Court of Appeals committed a
Reversible Error, by concluding that, "the Petitioner fails to address how
the District Court erred by dismissing his action for failure to state a
claim"?

2. Whether or not, the Ninth Circuit Court of Appeals abused its Discretion
by denying the Petitioner's timely filed, Petition for Panel Rehearing,
which reiterated the Petitioner's Opening Brief for a Lost Legal Mail and
which was the overlooked or misapprehended point of fact or law?

3. Whether or not, the Ninth Circuit Court of Appeals exceeded its
Jurisdiction, therein, for the Plaintiff's Complaint, dismissed under Rule
12(b)(6), failure to state a claim, "under, Neitzke v. Williams 490 U.S. 319
(1989) 109 S.Ct., 1827, 104 L.Ed. 2d 338, at 326 and 329, which found by
a 9-0, vote that it had in fact stated a cognizable claim” was specific to the
factual case before it?

■J

(i)

V
' “l .

f

Parties to Proceeding and Related Cases.
Petitioner:

(same)

Respondents:

Jill Eggleston, Director of Operations for National
Records Center.
G 6641, Thompson, Deportation Officer for U.S. Dep't of
Homeland Security.
Secretary (Fmr.) John Kerry for U.S. Dep't of State

Related Cases.
This Case is Federal collaterally challenged in:
Ibeabuchi v. Penzone, No. 18-CV-03911-PHX-JAT(JZB), U.S. District Court
for the State of Arizona, Phoenix. Judgment entered, May 25, 2018.
Ibeabuchi v. Penzone, No. 19-16049, U.S. Court of Appeals for the Ninth
Circuit. Judgment entered, October 31, 2018.
Ibeabuchi v. Penzone, Application For Extension Of Time To File A Petition
For A Writ Of Certiorari, granted by Honorable Justice Kagan on, June 11
!

2019 and whose Petition was filed on, June 26, 2019, according to the
Proof of Mailing (Postmark) but, was not docketed, till date.
(See, Appendix F)

(ii)
nJ

V

Table of Contents.
Opinions Below.

1-2

i

Jurisdictional Statement................................................................................

3

|

Constitutional Provisions, Treaties, Statutes, Ordinances and Regulations
involved in the Case

4

Statement of the Case

5-9

Reasons for Granting the Petition

10-15

Conclusion

16

Index to Appendices.
Appendix A: Not For Publication; Court of Appeals Ninth Circuit's MEMORANDUM,
entered on, April 13, 2020, by Judges Tashima, Bybee and Watford.
(See, U.S.C.A., DktEntry: 12-1)
i

Appendix B: Appealable Merit; Lost Legal Mail of the United States District Court's
ORDER, 2:17-cv-0450-JAT-JZB, entered on, February 26, 2019.
(See, U.S.D.C., Document No. 12)
Appendix C: Not For Publication; Court of Appeals Ninth Circuit's ORDER, denying
a timely filed Petition for Panel Rehearing, entered on, August 24,
2020. (See, U.S.C.A., DktEntry: 14)
Appendix D: Legal Admission, (see, U.S.D.C., Document No. 15) by the United
States District Court for Loss of Legal Mail containing the Court’s

(iii)

1

'v;

!

ii

February 26, 2019's Order.

Appendix E: Regulation for E-Filing (GENERAL ORDER 14-17), August 22, 2014.
Appendix F: Related Case, Proof of Mailing and Account Balance Inmate
Consolidated Statement, All Transactions, 06/26/2019, for Amount
$4.55. Including the Director of Prisons' Response to the Inmate's
Letter.

i

i

V

(iv)

Table of Citations and or Authorities.

Supreme Court Cases.

Page No.

Bell v. Hood, 327 U.S. 678, 682-683 S. Ct., 773 776-76, 90 L. Ed.
939 (1946)

14

Brower v. County of Inyo, 489 U.S. 593, 103 S. Ct., 1378 108 L.Ed.

2d 628 (1989)

14

Hagans v. Lavine, 415 U.S. 528, 536-537, 94 S. Ct., 1372, 1378-79,
39 L.Ed. 577 (1974)

14

Haines v. Kerner, 404 U.S. 519 (1972) 92 S. Ct., 594, 30 L.Ed. 2d
652 [520]

12

Neitzke v. Williams, 490 U.S. 319 (1989) 109 S. Ct., 1827, 104 L.Ed.
2d 338 [327] [329]

14

United States Court Of Appeals' Cases.
!

Byran v. Werner, 516 F. 2d 233, 238 (3d Cir., 1975)

3, 13

Greenwood v. FAA, 28 F.3d 971, 977 (9th Cir., 1994)

7

Ibeabuchi v. Megwa, USAP9 No. 19-16706

12

Sanders v. U.S., 113 F. 3d 184, 187 (11th Cir., 1997)

13

Smith v. Marsh, 194 F. 3d 1045, 1052 (9th Cir., 1999)

7

U.S. v. Alden, 527 F.3d 653, 661-62 (7th Cir., 2008)

6

!

Statutes, Rules or Regulations.

(v)

V
i:
h : f

3, 9

28 U.S.C. ss. 1254(1)
28 U.S.C. ss. 1291

8

28 U.S.C. ss. 1915(d)

14

28 U.S.C. ss. 2101(c)

3

13

28 U.S.C. ss. 2255

6, 14

42 U.S.C. ss. 1983

Supreme Court Rules.

13

SCR 10

!

SCR 10(a)

3, 13

SCR 14.1(d)

1

Federal Rules of Appellate Procedure.
FRAP 4(a)(6)

1

FRAP 34(a)(2)

6, 8

FRAP 40(a)(2)

8

FRAP 40(a)(1)(B)

6

Federal Rules of Civil Procedure.
FRCP 12(b)(1)

14

FRCP 12(b)(6)

14

Court of Appeals Ninth Circuit's Rules.

(vi)
L

.

;

9th Cir., Rul. 30-3

5, 15

9th Cir., Rul. 40-1

8

Regulations.
GENERAL ORDER 14-17

2, 5, 11, 14

<4

(vii)

IN THE
Supreme Court of the United States
PETITION FOR WRIT OF CERTIORARI
The Petitioner, respectfully, seeks review of the Opinions of the United States
Court of Appeals Ninth Circuit and the United States District Court for Arizona
below.
Opinions Below.
This Case originated from the Federal Courts.
The Opinion of the United States Court of Appeals appears at Appendix A, to the
Petition and is published via PACER, non obstatnte the Not For Publication, evinced
on the Face of the MEMORANDUM.
The Opinion of the United States District Court, the Appealable Merit, is not received
till date and exposited in Appendix B, as such.
The Court of Appeals Ninth Circuit's ORDER, denying a timely filed Petition for
Panel Rehearing is appended at Appendix C and is published via PACER.
The United States District Court's ORDER, granting a Motion to Reopen the Time
to file an Appeal, pursuant to Rule 4(a)(6) of the Federal Rules of Appellate
Procedure, the Legal Admission appears at Appendix D and is published via PACER.
The United States District Court For The District Of Arizona's GENERAL ORDER
1

14-17, In the matter of: ELECTRONIC SUBMISSION OF PRISONER DOCUMENTS
!

PILOT PROJECT, dated this 22nd day of August, 2014 and signed by Raner C.

|

Collins, Chief Judge United States District Court is appended at Appendix E and is

|

published via PACER, proceeding this particular case-in-fact.
(See, U.S.D.C., Document No. 7)
Appendix F, is a Proof of the Related Case, as submitted to this Honorable Court on,
June 26, 2019, through the Arizona Department of Corrections, South Unit,
Deputy Warden Lori Stickiey; yet, till date this Matter was never docketed. Thus,
Filing was actualized to this Court Rules 13.1 and 13.3, respectively, and formed a
basis for a Collateral Challenge in the Federal Jurisdiction and Appealable Merit, sua
sponte.

;

2

Basis for Jurisdiction in this Court.
Because the Court of Appeals Ninth Circuit's MEMORANDUM, was issued on, April
13, 2020 and the Court of Appeals Ninth Circuit's ORDER, denying the Petitioner's
timely filed Petition for a Panel Rehearing was issued on, August 24, 2020, there
was no need for an Order granting an Extension of Time to file the Petition for a
Writ of Certiorari, in that, the Petition is timely submitted to this Court, at-law.
(See, 28 U.S.C. ss. 2101(c).)
Therefor, this Honorable Court is at Investiture and conferred of the Jurisdiction
to grant a Petition for a Writ of Certiorari, stemming from the (tourt of Appeals
Ninth Circuit, quare, of the United States Constitutional Article 111, and in,
Chapter 28 of the United States Code, Section, 1254 (1).
Further, the basis for Jurisdiction of this Court is that, this Case-in-fact promotes a
Review, consistent with the Conflict of Interest arising amongst the Decisions of a
I

United States Court of Appeals on the same Important Matter, (see., SCR 10(a))
for, Legal Mail. Citing, e.g., in, Bryan v. Werner. 516 F. 2d 233, 238 (3d Cir., 1975)

!

(Prison Officials have a Responsibility to promptly forward Mail to Inmate in their

l

*|

Custody.)
Thus, considerations should be granted on Review on Certiorari for the alighted
disproportionate Judicial Countermand by the Court of Appeals Ninth Circuit's
MEMORANDUM.
3

;
;

The Constitutional Provisions, Treaties, Statutes, Ordinances and Regulations
involved in the Case.

The United States Constitutional Article, 111. (Adopted, 1787) Judiciary.
The United Sates Constitutional Amendment, 1. (Adopted, 1791) Freedom of
Religion, Speech, Press, Assembly and Petition.
The United States Constitutional Amendment, 5. (Adopted, 1791) Security of
Person and Possession for Prevention of Double Jeopardy; Right against Self
Incrimination.
The United States Constitutional Amendment, 6. (Adopted, 1791) Fair, Speedy and
Public Trial by Jury, Right to Counsel.
The United States Constitutional Amendment, 14. (Adopted, 1868) Guarantee of
the Right to Citizenship.
Face and Declaratory Act, 28 U.S.C. ss. 1746.
Freedom of Information and Privacy Act, FOIA/PA.

4

Statement of the Case.

On, April 13, 2020, the Judges as qualified to the Court Structure and Procedures
for the Middle Unit, 1 to-wit: A. Wallace Tashima
(Senior Circuit Judge, Pasadena California); Jay S. Bybee
I

(Circuit Judge, Las Vegas, Nevada) and Paul J. Watford
(Circuit Judge, Pasadena, California) filed a MEMORANDUM, affirming the United
States District Court's Order, which dismissed the Pro Se Petitioner's
42 U.S.C. ss. 1983, First Amended Complaint for failure to state a claim and with
thirty (30) days leave to amend, therein. Whose, Order was never received by the
Petitioner in Custody.

i

The Motions Panel, cumulatively, concurred that, the Disposition was not

:

appropriate for publication and was not precedent except as provided by the Ninth
Circuit Rule 36-3. 2 As, submitted, quare, the Panel, unanimously concluded that

lSee: FEDERAL RULES OF APPELLATE PROCEDURE NINTH CIRCUIT RULES, CIRCUIT ADVISORY
COMMITTEE NOTES 1 DECEMBER 2019: JUDGES OF THE UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT, COURT STRUCTURE AND PROCEDURES, C. Judges and Supporting Personnel
(1) Judges.
2See: (a) Not Prcedent. Unpublished dispositions and orders of this Court are not Precedent,
except when relevant under the doctrine of the law case or rules of claim preclusion or issue
preclusion.

5

the Case was suitable for Decision without Oral Argument, citing, in, Fed. R. App.
P. 34(a)(2). 3
The Motions Panel, acknowledged that, the Pro Se Petitioner's 42 U.S.C. ss. 1983
Constitutional Claims, arose out of the Petitioner's Immigration Detention and his
Request for Documents under the Freedom of Information Act.
There, for, Standards in cases suitable for Decision without Oral Argument; (B),
to-wit: the dispositive issue or issues have been authoritatively decided;
includes the Pro Se Petitioner's Status, requiring a voluntary waiver of Attorney, 4
for Oral Argument. However, this dispositive issue was not, authoritatively
decided, there, for the acknowledged by the Motions Panel, as, stated.
Quare; (A), the Appeal was not Frivolous, this Court, ergo, should grant the
Petition to ascertain the Standards; (B) and (C), remaining on cases suitable for
Decision with Oral Argument, as met for Immigration Matter, in that, the Petitioner

3See: Standards. Oral argument must be allowed in every case unless a panel of three judges who
have examined the briefs and record unanimously agrees that oral argument is unnecessary for
any of the following reasons: (A) the appeal is frivolous. (B) the dispositive issue or issues have
been authoritatively decided; or (C) the facts and legal arguments are adequately presented in the
briefs and record, and the decisional process would not be be significantly aided by oral argument.
4See: Pursuant to the First Amended Complaint, (see, U.S.D.C., Document No. 10) Respondents
were U.S. Agencies, (see, FRAP 40 (a)(1)(B)) which ultimately made the Petitioner a Non-Moving
Party, sua sponte, allowing for a Waiver of Counsel to Self-Representation as provided by the Sixth
Amendment. Citing, in. U.S. v. Alden. 527 F.3d 653, 661-62 (7th Cir., 2008)(Voluntary Waiver when
Judge gave Defendant Ultimatum to accept Appointed Counsel, hire Private Counsel, or proceed
Pro Se)

6

I

was the Subject in his FOIA Request and a subsequently, granted of a U.S.
Citizenship at the time of the Complaint, herein. (See, U.S. Const. Amend. XIV)

Further, the Motions Panel was tacit with its Dictum and as analogized in the
foregoing Exegesis, herein, id est:

I

“In his opening brief, Ibeabuchi fails to address how the district court erred by dismissing his action
for failure to state a claim. As a result, Ibeabuchi has waived his challenge to the district court's order:
See Smith v. Marsh, 194 F. 3d 1045, 1052 (9lh Cir., 1999) (“[0]n appeal, arguments not raised by a
party are deemed waived”); Greenwood v. FA A, 28 F.3d 971, 977 (9lh Cir., 1994) (“We will not
manufacture arguments for an appellant... ’’) “We reject as meritless Ibeabuchi's contentions that the
district court clerk's description of his motion to reopen the time to appeal was erroneous and that the
district court should have granted him leave to amend sua sponte. ” “Allpending motions are denied as
moot. ” “AFFIRMED. ”

i

l
!

By far, to the Petitioner's recharacterized Motion (without consent) by the United
States District Court to reopen the time to appeal and which was granted
(see, U.S.D.C., Document No. 15) (see, Appendix D) was not factual to the lost
Legal Mail, at the derelict of the Court and Prison Officials. Which was rejected as
meritless..., contentions by the Motions Panel, non obstante the Mail was the Order of
the United States District Court issued on, February 26, 2019, granting the Pro Se
Petitioner, his Constitutional Due Process Right of an Opportunity to amend his
Complaint, sua sponte, therein.
Accordingly, the Petitioner's Opening Brief addressed the impediment caused by
the lost Legal Mail, and the Reproof and Sophism construed in the Dictum, above.
Which should suffice a Claim for which this Court should grant the Petition for a

7

Writ of Certiorari, herein and for the Doctrine of Res Ipsa Loquitur, at-law.
j

On, April 23, 2020, the Petitioner filed a timely Petition for a Panel Rehearing,

|

FRAP 40(a)(2); 9th Cir., Rul. 40-1, (see, U.S.C.A., DktEntry: 13) and elucidated in

i

pertinent part of the overlooked and misapprehended points of fact or law by the

i

Motions Panel.
On, August 24, 2020, and after four (4) Months, period of filing said, Petition, the
Merit Panel, 5 unwontedly, denied same, (see, U.S.C.A., DktEntry: 14),
(Appendix C) to cause this Petition for a Writ of Certiorari, in this Court, most
respectfully. Non obstante, therein, the Order, unprepossessingly, barred further
Filings, without any Reasons, whatesoever, at-law. See, No further filings will be
entertained in this closed case.

!

Because, the Appeal was not Frivolous and no Dispositive Issue or Issues have
been authoritatively decided and the Facts and Legal Arguments were adequately
presented in the Petitioner's Brief and Record, (without Respondents' Answer)
requiring no oral Argument for Decisional Process; therefor, the Court of Appeals
Ninth Circuit, denied the Petitioner's Due Process of Law, contained in the United
States Constitutional Amendents 1,5,6, and 14, respectively, for Decisional Process
and at its Jurisdictional Authority. (See, Fed. R. App. P. 34(a)(2), 28 U.S.C. ss. 1291)

5See: Merit Panel consisting of the same Motions Panel. (See, Appendices A., C.)
8

Axiomatically, this Court retains the Jurisdiction to review the Decisions and
Orders of the United States Court of Appeals, (see, 28 U.S.C. ss. 1254(1))
especially for Constitutional Questions, De Novo.

!

9

Reasons for Granting the Petition.

The Court of Appeals Ninth Circuit, regrettably, omitted the review of the Content
of the United States District Court's Order of February 26, 2019, which was
appealed. And which granted the Petitioner the Opportunity to amend his
Complaint, sua sponte, dismissing said Complaint for failure to state a claim. And
which Order was never received by the Petitioner, as a matter of right, at-law.

Thus, the Appealable Merit. (See, U.S.D.C., Document No. 12)
(Appendix B, not appended))
The Petitioner, clearly, stated this Fact in his Petition for Panel Rehearing
(see, U.S.C.A. DktEntry: 13) that his Appellant's Opening Brief at, Pages 2 and 3
respectively, informed the Court that:

!

“Accordingly; the Appellant was not served the Legal Mail, bearing the Court's Order, which granted
the Appellant the Leave to file a Second Amended Complaint within, 30 days from February 26, 2019
(Doc. 12, PACER)"
“Appellant, thereby, suffered a Constitutional Right, violation to Mail, qua, Service ofProcess. An,
inherent, Abuse ofProcess of the Court and Prison Authorities. Which warrants an Appellate Review in
the Order and Judgment (Doc. 13, PACER) ”
(< (<

In the said, October 2, 2019, at Page-2-, the District Court, also acknowledged that, the Appellant
was not served of the Judgment, which was transmitted to the Appellant's Unit, electronically, but, the
Court failed to sua sponte, acknowledge the Prejudice, encountered by Appellant of the lost
Opportunity to amend his First Complaint as granted in the District Court Order ofFebruary 26,
2019, and entered in the April, Judgment” (see DktEntry: 4-1, 10/17/2019) ”

Whose , Quiddity, quare, in the Petition for Panel Rehearing, is the overlooked and

10

misapprehended point of fact or law and the Reason to grant the Petition, herein,
in jare.

Further, the Reason for the Failure to transmit the Legal Mail to the Petitioner was
due to the faults of the United States District Court and conceded in its Order,
(see, Appendix D) and of the Arizona Department of Corrections, as exposited in
the GENERAL ORDER, (see, Appendix E)
It is noteworthy, that, the Agreement to transmit Legal Documents to Inmates was
a combination of support buttressed by the GENERAL ORDER 14-17, signed by
Chief Judge Collins Raner, United States District Court on, August 22, 2014 for
Pilot Project, devised for Inmates Electronic Filings with the Federal Courts.
There, at Paragraph 5, recites that;
“The Eyman Complex Units and the designated Lewis Complex Units will each establish an email
address for receipt ofNEFs of documents filed electronically. Staff in these Units will print the NEFs
and the hyperlinked orders and other documents filed by the Court. Receipt of copies of the NEFs and
hyperlinked documents by the prisoner constitutes service of the document on the prisoner. If the
prisoner refuses delivery or is no longer at the designated Unit, Unit staffwill indicate the reason for
the non-delivery on the NEF and email it to the Court. ”

Thus, a Plethora of Evidence exist to counternance the burden of withal of the Lost
Legal mail and the Appealable Merit, per se, herein. And whose Exporpriation was
conceded in Appendix D.
There, also, at Page -2-, Lines 14-20, the United States District Court admitted

11

that:
:
j
j
|
j

“Plaintiffdenies ever receiving a copy of the April 11, 2019 Judgment. Court records reflect that a
copy of the Judgment was electronically transmitted to Plaintiffs unit, but the Court recognizes that the
copy may not have been delivered to Plaintiff, and he represents that he did not learn of entry of
judgment until a footnote in another one of his cases stated as much. Accordingly, the first requirement
is satisfied. Plaintifffiled the instant motion within 180 days of the entry ofjudgment and the Court
finds that no party will be prejudiced by reopening the time for appeal”

Again, an Abuse of Discretion is evinced in the Extent of Review to the
Responsibility Testimonial, wherein, the same Judge should had wontedly,
(see, e.g., in, Ibeabuchiv. Megwa, No. 19-16706) (see, U.S.D.C.,Document No. 32)
(U.S. Court of Appeals for the Ninth Circuit, Judgment, pending) issue a Praecipe to
serve Process of the admitted Lost Legal Mail, pursuant to timeliness of the
Appeal of 180 days of entry of Judgment. Rather, the resultant denial of Due
Process of the Pro Se Indigent Petitioner's Opportunity to Second Amended
Complaint.

I

See, e.g., in, Haines v Kerner. 404 U.S. 519 (1972) 92 S.Ct., 594, 30 L.Ed. 2d 652,
16, at *520, there, this Honorable Court, granted Certiorari and appointed Counsel to

represent Petitioner. The only issue now before that Court, likewise, here, is the
Petitioner's Contention that the District Court erred in dismissing his Pro Se
Complaint without allowing him to present evidence on his claims. Thus, this
?

Court discerned, that,
“For whatever may be the limits on the scope of inquiry of courts into the internal administration of
prisons, allegations such as those asserted by petitioner, however inartfully pleaded, are sufficient to
call for the opportunity to offer supporting evidence. We cannot say with assurance that under the
allegations of the pro se complaint, which we hold to less strigent standards than formal pleadings

12

j

drafted by lawyers, it appears 'beyond doubt that the plaintiff can prove no set offacts in support of his
claim which would entitle him to relief.'”

Appositely, for, this court granted Certiorari and appointed Counsel to represent Petitioner, this

Court should grant the Petition, herein, in jare.

Another, Reason for granting the Petition is the inherent, Excusable Neglect,
abound to the Delivery of Legal Mail. See, e.g., in, Brvan v. Werner. 516 F.2d 233,
238 (3d Cir., 1975) (Prison Officials have a Responsibility to promptly forward Mail
to Inmates in their Custody.) Compare to; e.g., in. Sanders v. U.S., 113 F.3d 184,
187 (11th Cir., 1997) (Dismissal vacated and remanded when Prisoner contented
he had not received Court Order denying ss. 2255 Relief until after Appeals Period
expired.)
A priori, is indicative and facial plausibility to suffice a claim for Relief. Wherein,
the Decision of the Court of Appeals Ninth Circuit conflicts and countermands the
!

Decisions of the Courts of Appeals, Third Circuit and Eleventh Circuit, respectively,
■

in jare. Accordingly, this Court grants a Judicial Discretion in review to such
Important Matter. (See, SCR 10 and SCR 10(a))
The Petitioner suffered an enormous amount of Abuse, resulting from the En Autre
Doit- Appeal Process to resolving an existing Grant of Relief of Opportunity to
Amend Complaint as expounded in this Petition; thus, the Reversible Error of the

13

Court, therein.

In, Neitzke v. Williams 490 U.S. 319 (1989) 109 S.Ct. 1827, 104 L.Ed. 2d 338, at
327 and 329, this Court opined; that,
i
i
■
I
j
|
;
\
i
\
|
\

“What Rule 12(b)(6) does not countenance are dismissals based on a judge's disbeliefof a complaint's
factual allegations. District court judges looking to dismiss claims on such grounds must look
elsewhere for legal support. A patently insubstantial complaint may be dismissed, for example, for
want ofsubject-jurisdiction under Federal Rule of Civil Procedure 12(b)(l). See, e.g., Hagans v
Lavine, 415 U.S. 528, 536-537, 94 S.Ct. 1372, 1378-79, 39 L. Ed.2d 577 (1974) (federal courts lack
power to entertain claims that are “'so attenuated and unsubstantial as to be absolutely devoid of
merit'’’) (citation omitted); Bellv. Hood, 327 U.S. 678, 682-683, 66 S.Ct. 773,776-76, 90 L.Ed. 939
(1946). “Indeed, we recently reviewed the dismissal under Rule 12(b)(6) of a complaint based on 42
U.S.C. ss 1983 andfound by a 9-to-0 vote that it had, in fact, stated a cognizable claim— a powerful
illustration that a finding of a failure to state a claim does not invariably mean that the claim is without
arguable merit. See Brower v. County ofInyo, 489 U.S. 593, 109 S.Ct. 1378, 103 L.Ed. 2d 628 (1989).
That frivolousness in the ss. 1915(d) context refers to a more limited set of claims than does Rule 12 (b)
(6) accords, moreover, with the understanding articulated in other areas of law that not all
unsuccessful claims are frivolous... ”

[T]he United States District Court's Witticism, ...but the Court recognizes that the copy may
not have been delivered to Plaintiff..., was sufficient indicia of reliability to conclude, that

the GENERAL ORDER 14-17's Stipulation at Paragraph 5, was breached to the
...Unit Staffwill indicate the reason for non-delivery on the NEF and email it to the Court. Which

Reason epitomizes accountability for non-delivery of said, Legal Mail, the Appealable
Merit, therein.
Therefor, this Petition should be granted for the Reason stated, qua supra.

Finally, the Reason for granting the Petiton, is also found in the Ninth Circuit Rule

14

30-3 PRISONER APPEALS WITHOUT REPRESENTATION BY COUNSEL.
There, the Ninth Circuit Court of Appeals Rule 30-3, recites, that:

!

“In cases involving appeals by prisoners not represented by counsel, the clerk of the district court
shall, within 21 days from the receipt of the prisoner's written request, forward to the prisoner copies
of the documents comprising the excerpts ofrecord, so that the prisoner can prepare the briefs on
appeal. Ifthe prisoner was granted leave to proceed in forma pauperis at the district court or on
appeal, the copies will be produced at no charge to the prisoner: (Rev. 12/1/09; 6/1/19) ”

:

The Petitioner's "Written Request" (see, U.S.D.C. Document No. 20) upon this
Rule, which was filed of February 18, 2020, was abnegated by the United States
District Court, (see, U.S.D.C. Document No. 21) filed on, February 24, 2020‘s
Order. The Ample Opportunity to cure the loss of Legal Mail was tacitly, wreaked
and suppressed, consequently, depriving the Petitioner of his United States
Constitutional Amendment, Fourteen, for, Equal Protection. Thus, the
In Excess of jurisdiction, herein.
In fraudemlegis of the United States District Court is a fortiori to grant the Petition,
herein.

:

15
4r

!

Conclusion.

Wherefor, the Petitioner, respectfully, requests this Court grants the Petition, in
jare.
Date:

/?, 2~6^o

IBEABUCHI, IKEMEFULA CHARLES
Petitioner, qua, Pro Se status.

16

